No.

 

 

In THE
Supreme Court of the Anited States

JIMMIE EUGENE WHITE, II, PETITIONER,

¥.

UNITED STATES OF AMERICA

on petition for a writ of certiorari to the
united states court of appeals for the
sixth circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,526 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

 

Wilson-Epes Prirfting Co., Inc.
